               Accuracy Rates Have Increased at Taxpayer
                 Assistance Centers, but Improvement Is
                Needed to Provide Taxpayers Top-Quality
                           Customer Service

                                  February 2004

                       Reference Number: 2004-40-065




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                                 DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       February 27, 2004


       MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


       FROM:                            Gordon C. Milbourn III
                                        Acting Deputy Inspector General for Audit

       SUBJECT:                         Final Audit Report - Accuracy Rates Have Increased at Taxpayer
                                        Assistance Centers, but Improvement Is Needed to Provide
                                        Taxpayers Top-Quality Customer Service (Audit # 200340019)


       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       responses to taxpayers’ tax law questions. The overall objective of this review was to
       determine if the IRS provided accurate and timely responses to taxpayers’ tax law
       questions from January through June 2003. In addition, we assessed whether IRS
       employees were professional and courteous to our auditors that made anonymous visits
       to the Taxpayer Assistance Centers (TAC). We also evaluated whether TAC addresses
       and office hours made available to taxpayers were accurate, whether IRS employees
       adhered to operating guidelines on referral procedures, and whether all taxpayers were
       provided an opportunity to participate in the customer satisfaction survey at the TACs.
       Lastly, we evaluated the TAC Quality Assurance Program.
       We have issued nine bi-monthly and two semiannual reports on the results of our visits
       to the TACs from January 2002 through June 2003.1 This report covers the period
       January through June 2003 but also includes a summary of the results of all auditor
       visits to the TACs from January 2002 through June 2003.
       We commend the IRS for the corrective actions it has taken in response to our
       previously issued reports. We believe the increase in accuracy rates compared to those
       in the same period in Calendar Year 2002 can be directly attributed to these actions.
       For example, IRS employees correctly answered 71 percent of the questions asked and
       incorrectly referred only 2 percent to publications from January through June 2003,
       compared to correctly answering only 53 percent of the questions asked and incorrectly
       referring 20 percent to publications from January through June 2002. Overall, from

       1
           A list of these reports can be found in Appendix IX.
                                                         2


January 2002 through June 2003, our auditors made 605 anonymous visits to
303 TACs located in 50 states and Washington, D.C. The auditors received correct
answers to 729 (60 percent) of the 1,213 questions asked.
From January through June 2003, our auditors made 206 visits to 104 TACs located in
32 states2 and asked 411 tax law questions that are within the scope of topics TAC
employees should have been trained to answer. The auditors received correct answers
to 293 (71 percent) of the 411 questions asked. For 10 (2 percent) of the 411 questions
asked, IRS employees referred the auditors to IRS publications and generally advised
the auditors to conduct their own research to find the answers to their questions.
Specific trends that, when addressed, may increase taxpayers’ chances of receiving
correct answers to their questions and consistent levels of customer service include:
    •   Taxpayers have a higher chance of receiving accurate answers when IRS
        employees follow required procedures to use tax instructions, forms, and
        publications to answer questions. In 76 percent of responses for which auditors
        documented that the employee used these materials, the questions were
        answered correctly.
    •   Taxpayers have a higher chance of receiving accurate answers when IRS
        employees ask probing questions to obtain relevant facts from the taxpayers.
        Accuracy rates were 92 percent when all probing questions were asked and only
        31 percent when no probing questions were asked.
    •   Taxpayers that visit the TACs in certain geographical locations may receive
        inconsistent levels of customer service. For example, 82 percent of the
        questions asked in Area 43 were correctly answered, while only 60 percent of
        the questions asked in Area 64 were correctly answered.
IRS employees also answered tax law questions they were not trained to answer.
Auditors completed visits to 85 additional TACs to determine if IRS employees referred
taxpayers to the IRS toll-free telephone lines or Internet for questions out of the scope
of their training. IRS employees did not follow referral procedures for 127 (57 percent)
of the 223 out of scope questions asked.
In October 2002, the IRS implemented a Quality Assurance Program to provide
employees feedback on ways to improve the quality of service offered in the TACs.
Members of the Quality Assurance staff visited 252 TACs and asked 1,239 tax law
questions, but the Quality Assurance Program does not have a process to provide
accurate trending information.
Auditors had positive experiences when they visited the TACs. IRS employees were
professional and courteous in 203 (99 percent) of the 206 visits. Wait time for service
was 1 hour or less for 96 percent of the visits. In addition, 74 (71 percent) of the

2
  See Appendix V for specific states visited.
3
  Area 4 states visited were Illinois, Indiana, Kentucky, Michigan, Ohio, West Virginia, and Wisconsin.
4
  Area 6 states visited were Colorado, Hawaii, Idaho, Montana, New Mexico, Utah, and Wyoming.
                                             3


104 TACs visited by our auditors had office hours listed on the IRS Internet site,
The Digital Daily, which matched the hours posted at the TACs. However, the auditors
were not offered a Customer Survey Comment Card for 92 (45 percent) of 206 visits.
The IRS uses Customer Survey Comment Cards to obtain taxpayer feedback regarding
the quality of customer service they receive at the TACs.
We recommended that the Commissioner, Wage and Investment Division, revise the
Quality Assurance Program to include a systematic methodology to select scenarios
and ensure the accuracy and sufficiency of information captured in the Quality
Assurance database.
Management’s Response: IRS management agreed with our recommendation and
reported outcome and has already initiated corrective actions. Management
appreciated our recognition of the corrective actions taken on issues identified in our
previous reports, but they continued to disagree with our method of reporting referrals to
publications and service denied when computing the accuracy rate. As such, they do
not believe our reported accuracy rate of 71 percent is a true measure of the quality of
responses provided by the IRS.
Excluding the references to publications, service denied, and referrals to other
employees brings the accuracy rate to 74 percent, which management recognized is
inadequate. Management’s long-term approach to improving quality is the
implementation of initiatives that improve the quality, efficiency, and delivery of service
to taxpayers. Their plans bring together four initiatives into one project known as the
Embedded Quality Business Integration (EQBI). EQBI focuses on standardized
measures, employee monitoring, and enhanced feedback tools. Management’s
complete response to the draft report is included as Appendix XII.
Copies of this report are also being sent to the IRS managers who are affected by the
report recommendation. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
            Accuracy Rates Have Increased at Taxpayer Assistance Centers,
     but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service




                                                  Table of Contents


Background ............................................................................................... Page 1
Taxpayers Received Correct Answers to More Tax Law Questions
When Compared to the Same Period Last Year ....................................... Page 4
Taxpayers Received Answers to Tax Law Questions Employees
Were Not Trained to Answer ..................................................................... Page 9
Management Implemented a Quality Assurance Program,
but Improvements Are Needed.................................................................. Page 10
         Recommendation 1: ...................................................................... Page 12

Improvements Were Made to Provide Accurate Taxpayer
Assistance Center Office Hours and Addresses to Taxpayers .................. Page 13
Auditors Had Positive Experiences When They Visited
Taxpayer Assistance Centers.................................................................... Page 14
Auditors Were Not Always Offered Customer Survey
Comment Cards ........................................................................................ Page 14
Appendix I – Detailed Objectives, Scope, and Methodology ..................... Page 16
Appendix II – Major Contributors to This Report........................................ Page 17
Appendix III – Report Distribution List ....................................................... Page 18
Appendix IV – Outcome Measures ............................................................ Page 19
Appendix V – States Visited From January Through June 2003 ............... Page 20
Appendix VI – Accuracy Rates by State
January Through June 2002 and 2003 ..................................................... Page 21
Appendix VII – Accuracy Rates by Geographical Area
January Through June 2003...................................................................... Page 23
Appendix VIII – Accuracy Rates by Tax Law Topic
January Through June 2003...................................................................... Page 24
Appendix IX – Listing of Reports Issued for January 2002
Through June 2003 Audits ........................................................................ Page 25
           Accuracy Rates Have Increased at Taxpayer Assistance Centers,
    but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

Appendix X – Accuracy Rates by Month
January 2002 Through June 2003............................................................. Page 27
Appendix XI – Accuracy Rates
January 2002 Through June 2003............................................................. Page 28
Appendix XII – Management’s Response to the Draft Report ................... Page 29
            Accuracy Rates Have Increased at Taxpayer Assistance Centers,
     but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                                One of the Congress’ principal objectives in enacting the
Background
                                Internal Revenue Service (IRS) Restructuring and Reform
                                Act of 1998 (RRA 98)1 was to mandate that the IRS do a
                                better job of meeting the needs of its customers. In the
                                RRA 98, the Congress directed the IRS to achieve a better
                                balance between its post-filing enforcement efforts and
                                pre-filing taxpayer assistance through education and service.
                                To comply with this Congressional mandate, the IRS
                                revised its mission statement to refocus its emphasis on
                                helping taxpayers understand and meet their tax
                                responsibilities.
                                Despite this increased emphasis on customer service, the
                                Senate Committee on Appropriations was deeply concerned
                                about the findings in a May 2001 Treasury Inspector
                                General for Tax Administration (TIGTA) audit report on the
                                IRS Taxpayer Assistance Centers (TAC).2 That report
                                showed our auditors did not receive accurate or sufficient
                                answers to 73 percent of their tax law questions posed
                                during anonymous visits to the TACs during January and
                                February 2001.
                                Based upon the results of our 2001 review, Senator
                                Byron Dorgan (Democrat - North Dakota), then Chairman
                                of the Subcommittee on Treasury and General Government,
                                proposed an amendment to the Treasury spending bill3 for
                                Fiscal Year (FY) 2002. The amendment required the
                                TIGTA to conduct visits to all of the TACs and report to the
                                Congress on whether taxpayers are provided correct and
                                prompt answers to their tax law questions. Consequently,
                                we are conducting anonymous visits to all of the TACs over
                                a 2-year period.




                                1
                                  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                                sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                                23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                2
                                  Letter Report: The Internal Revenue Service Continues to Give
                                Incorrect Tax Law Information in Taxpayer Assistance Centers
                                (Reference Number 2001-40-077, dated May 2001).
                                3
                                  Treasury and General Government Appropriations Act, 2002,
                                Pub. L. No. 107-67, 115 Stat. 514 (2001).
                                                                                                Page 1
       Accuracy Rates Have Increased at Taxpayer Assistance Centers,
but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                           TACs
                           One of the IRS’ FY 2003 major management challenges, as
                           defined by the TIGTA, is to provide quality customer
                           service to each and every taxpayer. Taxpayers have several
                           options from which to choose when they need assistance
                           from the IRS. These options include walk-in service at the
                           TACs, toll-free telephone assistance, and the IRS Internet
                           site called The Digital Daily.
                           The IRS is committed to providing top-quality service to
                           taxpayers, as shown by the IRS Field Assistance (FA)4
                           office’s mission to minimize the burden to customers in
                           satisfying their tax obligations by providing the right
                           services at the right location at the right time. The FA office
                           has overall responsibility for the TACs, and its services are
                           provided in 403 TACs organized into 7 geographical areas
                           located throughout the United States.
                           To accomplish its mission, the FA office provides
                           professional assistance, education, and compliance services
                           to customers that desire face-to-face interaction. IRS
                           employees that work in the TACs assist customers by
                           interpreting tax laws and regulations, preparing some tax
                           returns, resolving inquiries on taxpayer accounts, and
                           providing various other services designed to minimize the
                           burden on taxpayers in satisfying their tax obligations.
                           Operating guidelines require IRS employees to identify
                           themselves, provide their identification number either
                           verbally or visually to all taxpayers, and assist taxpayers in
                           a professional and courteous manner.
                           According to the IRS, the TACs served approximately
                           5.7 million taxpayers from January through June 2003.
                           Approximately 1.2 million of these taxpayers visited the
                           TACs for assistance with tax law.5 Figure 1 shows the
                           percentage of time spent by employees in the TACs on the
                           various services detailed above.



                           4
                             The FA office is a business unit within the Wage and Investment
                           Division Customer Assistance, Relationships, and Education function.
                           5
                             The IRS provided the number of taxpayers that visited the TACs for
                           assistance with tax law and the percentage of work shown in Figure 1.
                           We did not verify the accuracy of the numbers.
                                                                                          Page 2
       Accuracy Rates Have Increased at Taxpayer Assistance Centers,
but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                                    Figure 1: Percentage6 of Time Spent by IRS Employees
                                               in the TACs Assisting Taxpayers


                                              9%          4%
                                                                                     29%
                                 12%




                                     20%                                             25%
                                                   Taxpayer Accounts
                                                   Providing Forms
                                                   Tax Law Questions
                                                   Other Contacts
                                                   Tax Return Preparation
                                                   Incoming Calls

                           Source: The IRS FA office.

                           Auditor reviews of the TACs
                           We have issued nine bi-monthly and two semiannual reports
                           on the results of our visits to the TACs from January 2002
                           through June 2003.7 This report covers the period January
                           through June 2003 but also includes a summary of the
                           results of all auditor visits to the TACs from January 2002
                           through June 2003. (See Appendix X for year-to-date
                           accuracy rates by month.) During this period, TIGTA
                           auditors made 605 anonymous visits to 303 TACs located in
                           50 states and Washington, D.C. Our auditors received
                           correct answers to 729 (60 percent) of the 1,213 questions
                           asked. (See Appendix XI for the overall accuracy rate from
                           January 2002 through June 2003.)
                           From January through June 2003, auditors made
                           206 anonymous visits to 104 TACs located in 32 states.
                           (See Appendix V for specific states visited.) During these
                           visits, the auditors asked 411 questions related to 21 tax law
                           topics that are within the scope of topics that TAC
                           employees should have been trained to answer. Our
                           questions were designed to cover a wide range of tax law

                           6
                               Percentages do not add to 100 due to rounding.
                           7
                               A list of these audits can be found in Appendix IX.
                                                                                           Page 3
            Accuracy Rates Have Increased at Taxpayer Assistance Centers,
     but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                                topics to provide an overall assessment of whether taxpayers
                                are receiving correct answers to questions that an individual
                                taxpayer8 might ask when he or she visits a TAC.
                                This is the third semiannual trend report on the results of
                                our visits to the TACs. The review was conducted in the
                                IRS Customer Assistance, Relationships, and Education
                                function in the Wage and Investment (W&I) Division and
                                combines the results of our visits to the TACs from January
                                through June 2003. This review was conducted in
                                accordance with Government Auditing Standards. Detailed
                                information on our audit objectives, scope, and
                                methodology is presented in Appendix I. Major
                                contributors to the report are listed in Appendix II.
                                IRS employees correctly answered 71 percent of the
Taxpayers Received Correct
                                questions asked and incorrectly referred only 2 percent to
Answers to More Tax Law
                                publications from January through June 2003, compared to
Questions When Compared to
                                correctly answering 53 percent of the questions asked and
the Same Period Last Year
                                referring 20 percent to publications from January through
                                June 2002. From January through June 2003, our auditors
                                visited 104 TACs and asked 411 tax law questions.
                                Figure 2 shows the breakdown of the accuracy rates for this
                                period.
                                           Figure 2: Responses to Tax Law Questions (411)

                                                            Correct                Ref.               Correct
                                                              but                   to    Service    Toll-Free
                                                Correct   Incomplete   Incorrect   Pub.   Denied9    Referral10

                                    Responses    274          19          103       10        1          4
                                Percentages   67%          5%         25%     2%        0%              1%
                                                                                     11
                                Source: Anonymous visits performed by TIGTA auditors.

                                Figure 3 shows the comparison in accuracy rates for both
                                periods in 2002 and 2003.


                                8
                                  Individual taxpayers are nonbusiness taxpayers that file United States
                                Individual Income Tax Returns (Forms 1040, 1040A, or 1040EZ).
                                9
                                  The IRS employee did not answer the question.
                                10
                                   No answer was provided, but in each instance the IRS employee
                                offered to refer the auditor to the IRS toll-free tax law telephone number
                                to obtain an answer to the question.
                                11
                                   Correct plus Correct but Incomplete do not add to the 71 percent cited
                                in the text due to rounding.
                                                                                                  Page 4
       Accuracy Rates Have Increased at Taxpayer Assistance Centers,
but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                                Figure 3: Comparison of January Through June 2002 and
                                January Through June 2003 Semiannual Accuracy Rates12
                                                Jan-Jun 02        Jan-Jun 03
                            100
                             90
                             80         71%
                             70
                                   53%
                             60
                             50
                             40
                             30                27% 25%
                                                            20%
                             20
                                                                  2%
                             10                                         0% 0%       0% 1%
                              0
                                    Correct     Incorrect   Ref. To     Service    Referrals
                                                             Pub.       Denied

                           Source: TIGTA reviews conducted from January through June 2002 and
                           January through June 2003.

                           We commend the IRS for the corrective actions it has taken
                           in response to our previously issued reports. We believe the
                           increase in accuracy rates can be attributed to the corrective
                           actions taken by the IRS in response to our previously
                           issued bi-monthly and semiannual reports. For example, the
                           Referred to Publication responses significantly decreased
                           after the IRS implemented a zero-tolerance policy. As a
                           result of the reduction in Referred to Publication responses,
                           IRS employees provided responses to more questions that
                           were correctly answered.
                           Despite improvements, additional managerial oversight is
                           needed to ensure the TACs are providing top-quality
                           customer service to taxpayers. For example, TIGTA
                           auditors experienced minimal improvement in the number
                           of incorrect responses received in comparison with those
                           received in 2002. Auditors received incorrect answers to
                           126 (27 percent) of 470 questions asked from January



                           12
                             The accuracy rates in the graph represent percentages and include
                           Correct and Correct but Incomplete responses. For Referred to
                           Publication responses, the IRS employee did not answer the question but
                           referred the auditor to a publication. According to FA office
                           management, referring taxpayers to a publication is considered an
                           improper procedure. Percentages may not add to 100 due to rounding.
                                                                                          Page 5
       Accuracy Rates Have Increased at Taxpayer Assistance Centers,
but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                           through June 2002 and to 103 (25 percent) of 411 questions
                           asked during this same period in 2003.
                           An analysis of the responses received from January through
                           June 2003 to our tax law questions identified the following
                           trends. If the IRS addresses these trends with its employees,
                           it may increase taxpayers’ chances of receiving correct
                           answers to their questions and ensure taxpayers receive
                           consistent levels of customer service. (See Appendix VIII
                           for results by tax law topic.)
                           Taxpayers have a higher chance of receiving accurate
                           answers when IRS employees follow required
                           procedures to use tax instructions, forms, and
                           publications to answer questions
                           Accuracy rates decrease when IRS employees do not use
                           available tax instructions or publications to assist them in
                           answering taxpayers’ questions. IRS employees used
                           available tax instructions or publications when answering
                           357 (87 percent) of the 411 questions asked. Analysis of the
                           responses to these questions showed the accuracy rate was
                           76 percent. In contrast, the accuracy rate was only
                           43 percent when tax instructions or publications were not
                           used.13
                           Figure 4 shows the accuracy rates for tax law questions
                           when IRS employees did and did not use tax instructions or
                           a publication(s) when providing assistance to our auditors.
                                Figure 4:14 Responses to Questions for Which Employee Use of
                                 Instructions, Forms, and Publications Was Documented (411)

                                                                                                 Correct
                                                                               Ref.              Toll-
                                           Questions                           to     Service    Free
                                           Answered    Correct    Incorrect    Pub.   Denied     Referral
                            Form/Pub.
                                              357        76%         22%        1%      0%          1%
                              Used
                            Form/Pub.
                                           54           43%       43%       9%          2%          4%
                             Not Used
                           Source: Anonymous visits performed by TIGTA auditors.


                           13
                              The 76 percent and 43 percent accuracy rates include Correct and
                           Correct but Incomplete responses.
                           14
                              Percentages may not add to 100 due to rounding.
                                                                                           Page 6
       Accuracy Rates Have Increased at Taxpayer Assistance Centers,
but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                           During the fall of 2002, IRS employees were trained in and
                           required to use the Publication Method when assisting
                           taxpayers. This Method requires IRS employees to obtain
                           the appropriate publication, discuss specific information
                           related to the topic, ask appropriate questions to obtain facts
                           when assisting a taxpayer, and then respond to the
                           taxpayer’s issue or question.
                           In compliance with the Publication Method, IRS employees
                           are to make sure taxpayers receive an answer. However,
                           during seven of our visits, IRS employees referred the
                           auditors to IRS publications and generally advised the
                           auditors to conduct their own research to find the answers to
                           their questions. Auditors also documented that some
                           employees are still choosing to assist taxpayers without
                           using available resources or asking all required questions.
                           Taxpayers have a higher chance of receiving accurate
                           answers when IRS employees ask probing questions to
                           obtain relevant facts from the taxpayers
                           IRS employees did not always ask all the probing questions
                           outlined in tax instructions or publications. The risk that
                           taxpayers will receive incorrect answers is increased when
                           IRS employees do not ask all questions to obtain relevant
                           facts.
                           The accuracy rate is significantly affected when IRS
                           employees ask questions to obtain relevant facts from
                           taxpayers. For example:
                           •   Fifty-four (92 percent) of 59 questions for which IRS
                               employees asked all probing questions outlined in the
                               tax instructions and publications were correctly
                               answered.
                           •   Nine (31 percent) of 29 questions for which IRS
                               employees did not ask any probing questions were
                               correctly answered.
                           For each scenario, TIGTA auditors identified and
                           remembered facts relating to all the potential probes that
                           could be asked by an IRS employee. While all the probes
                           may not have been necessary to provide a correct answer,
                           certain probes provide key information needed to ensure all
                           relevant facts were obtained from the taxpayer.
                                                                                   Page 7
       Accuracy Rates Have Increased at Taxpayer Assistance Centers,
but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                           For example:
                           •    For 29 (60 percent) of 48 Earned Income Tax Credit
                                (EITC) questions, IRS employees did not ask the
                                auditors if they had valid Social Security Numbers
                                (SSN). To claim the EITC, the qualifying child of a
                                taxpayer must have a valid SSN.
                           •     For 11 (61 percent) of 18 Scholarship questions, IRS
                                employees did not ask the auditors the amounts of the
                                scholarships they received. Scholarship money received
                                is taxable only if the amount of the scholarship exceeds
                                the cost of tuition, fees, and books.
                           By not using available resources to ask all required
                           questions, IRS employees are making assumptions and
                           providing answers without considering facts relevant to
                           ensuring the answers given are correct.
                           Taxpayers that visit the TACs in certain geographical
                           locations may receive inconsistent levels of customer
                           service
                           The TAC location affects overall accuracy rates. Results
                           from the TACs visited in 7 areas in 32 states from January
                           through June 2003 show the following:
                           •    Seventy-five (82 percent) of 92 questions asked in
                                Area 4 were correctly answered.15
                           •    Thirty-one (60 percent) of 52 questions asked in Area 6
                                were correctly answered.16
                           •    Seven (6 percent) of 127 questions asked in Areas 5 and
                                6 resulted in auditors being referred to a publication,
                                compared to none in Areas 2 and 7.17
                           (See Appendices VI and VII for accuracy rates by state and
                           geographical area.)


                           15
                              Area 4 states visited were Illinois, Indiana, Kentucky, Michigan,
                           Ohio, West Virginia, and Wisconsin.
                           16
                              Area 6 states visited were Colorado, Hawaii, Idaho, Montana,
                           New Mexico, Utah, and Wyoming.
                           17
                              Area 2 states visited were Delaware, Maryland, and South Carolina.
                           Area 5 states visited were Iowa, Kansas, Missouri, Nebraska, and Texas.
                           Area 7 state visited was California.
                                                                                          Page 8
              Accuracy Rates Have Increased at Taxpayer Assistance Centers,
       but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                                  The burden on taxpayers is increased when they rely upon
                                  the IRS to help them comply with the tax law, but they are
                                  not provided correct responses to tax law questions. If the
                                  accuracy results for the 411 questions asked between
                                  January and June 2003 are indicative of the actual responses
                                  taxpayers receive when they visit a TAC, we estimate
                                  103 taxpayers could have received incorrect responses to tax
                                  law questions. Also, approximately 1.2 million taxpayers
                                  that visited the TACs from January through June 2003 to
                                  ask tax law questions were at risk of receiving incorrect
                                  responses to their tax law questions. We are not making any
                                  recommendations at this time but will monitor this during
                                  the annual filing season18 audits of the TACs.
                                  When providing answers to 127 (57 percent) of 223 “out of
Taxpayers Received Answers to
                                  scope” questions,19 IRS employees did not follow referral
Tax Law Questions Employees
                                  procedures. Out of scope questions are those that are
Were Not Trained to Answer
                                  beyond the level of training received by employees working
                                  in the TACs. IRS guidelines require that employees that
                                  receive an out of scope question offer to call the appropriate
                                  IRS toll-free telephone line on behalf of the taxpayer or to
                                  submit the question in writing to a subject-matter expert(s)
                                  via the Internet (R-mail).20 Figure 5 provides a breakdown
                                  of employees’ answers to tax law questions beyond their
                                  level of training.




                                  18
                                     The filing season is the period from January through mid-April when
                                  most individual income tax returns are filed.
                                  19
                                     In addition to the 104 visits for tax law questions, auditors completed
                                  visits to 85 additional TACs and asked 223 questions that were beyond
                                  the IRS employees’ level of training.
                                  20
                                     Questions submitted to the IRS R-mail system will be assigned to a
                                  designated employee who will provide an answer to the question within
                                  15 business days.




                                                                                                    Page 9
            Accuracy Rates Have Increased at Taxpayer Assistance Centers,
     but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                                Figure 5:21 Responses to Out of Scope Tax Law Questions (223)

                                                                       Questions Answered22
                                               Correctly
                                               Referred                                       Ref. to
                                                               Correct         Incorrect
                                                                                              Pub.
                                 Responses        96              56              32             39
                                Percentages    43%             25%            14%               17%
                                Source: Anonymous visits performed by TIGTA auditors.

                                The IRS does not want the employees in the TACs to
                                answer tax law questions beyond their skill level or for
                                which they have not been trained. This reduces employee
                                assumptions or interpretation of tax law for complicated
                                questions and reduces the risk that taxpayers will receive
                                incorrect answers to their questions. Employees are not
                                expected to be experts in all aspects of tax law. The burden
                                on taxpayers is increased when they rely upon the IRS to
                                help them comply with the tax law, but they are provided
                                with incorrect answers. We are not making any
                                recommendations at this time but will monitor this during
                                the annual filing season audits of the TACs.
                                Beginning in October 2002, the FA office instituted a
Management Implemented a
                                Quality Assurance Program for the TACs that will help
Quality Assurance Program,
                                identify ways to improve the accuracy and quality of its
but Improvements Are Needed
                                work processes. However, improvements could be made to
                                the program to make it more effective.
                                As part of the Quality Assurance Program, the Quality
                                Assurance staff plays the role of taxpayers and makes
                                anonymous visits to the TACs, completing the steps a
                                taxpayer might take if he or she decided to visit a TAC to
                                obtain answers to a tax law question(s). Results of these
                                reviews are provided to each employee’s manager with
                                specific feedback on the quality of service provided in the
                                TACs.
                                During FY 2003, the Quality Assurance staff visited
                                252 TACs and asked 1,239 tax law questions that were
                                within the scope of questions IRS employees are trained to

                                21
                                  Percentages do not add to 100 due to rounding.
                                22
                                  The IRS employee in the TAC should have referred the out of scope
                                question to a toll-free telephone line or R-mail, but instead the IRS
                                employee provided an answer.
                                                                                              Page 10
       Accuracy Rates Have Increased at Taxpayer Assistance Centers,
but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                           answer. Based upon the IRS’ request that we review the
                           Quality Assurance Program, the following limitations were
                           identified that, if addressed, would strengthen the program.
                           The Quality Assurance staff developed scenarios that
                           were too simplistic and did not adequately assess the
                           employees’ knowledge of tax law and IRS procedures
                           From October 2002 through June 2003, the Quality
                           Assurance staff asked 1,157 tax law questions (93 percent of
                           the total for FY 2003) that the employees could easily
                           answer (i.e., the questions did not require the employees to
                           ask additional probing questions and for the most part could
                           be answered with a yes or no response). In April 2003, we
                           advised the Quality Assurance staff that they should revise
                           the scenarios. They agreed, and in July 2003 the Quality
                           Assurance staff began using scenarios that require IRS
                           employees to ask probing questions to correctly answer the
                           questions. This should allow the Quality Assurance staff to
                           better assess the employees’ knowledge of tax law and IRS
                           procedures.
                           The Quality Assurance staff randomly chose scenarios
                           and tax law topics that could inhibit trend analyses
                           For all 1,239 questions, the Quality Assurance staff selected
                           questions from 24 topics designed to cover a wide range of
                           tax law topics. In addition, each staff member selected the
                           question(s) each preferred when making anonymous visits
                           to the TACs. They did not weigh the number of questions
                           asked per tax law topic or the specific number of times each
                           scenario was used. Therefore, the Quality Assurance staff
                           could not easily or adequately use the results to identify
                           trends or opportunities for improvement.
                           The Quality Assurance Program does not have a process
                           to provide accurate trends on the overall quality of
                           assistance provided in the TACs
                           For 112 questions asked at the TACs by the Quality
                           Assurance staff, the results were not correctly input into the
                           Program’s database. Results from the Quality Assurance
                           staff visits to the TACs are documented in a Data Capturing
                           Instrument sheet and manually input into a database that is
                           used to calculate tax law accuracy rates and identify trends.
                           The Quality Assurance staff uses the data to provide
                                                                                 Page 11
       Accuracy Rates Have Increased at Taxpayer Assistance Centers,
but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                           feedback to TAC managers. We selected a judgmental
                           sample of 50 of 112 questions and compared information
                           documented in the Data Capturing Instrument to
                           information captured in the database. For 6 (15 percent) of
                           40 sheets, information in the Data Capturing Instrument did
                           not match that in the database. We were unable to locate the
                           remaining 10 Data Capturing Instruments in IRS records.
                           Beginning in Calendar Year 2004, we plan to limit our
                           reviews of the TACs to the filing season. The Quality
                           Assurance Program will be the main source of continuous
                           feedback to TAC employees and managers. Without a
                           process to balance the use of scenarios and ensure accurate
                           and sufficient information is captured in their database, the
                           Quality Assurance staff will be unable to effectively assess
                           the quality of service provided to taxpayers and provide
                           useful feedback including trends to TAC managers and
                           employees for improving the quality of service.

                           Recommendation

                           We recommend the Commissioner, W&I Division:
                           1. Revise the Quality Assurance Program to include a
                              systematic methodology to select scenarios and ensure
                              the accuracy and sufficiency of information captured in
                              the Quality Assurance database.
                           Management’s Response: In October 2003, the IRS
                           changed its methodology for selecting scenarios for Quality
                           Assurance staff reviews. Scenarios are now selected based
                           upon the frequency of questions asked on a specific topic
                           from Customer Account Services function toll-free
                           telephone line data.
                           Beginning with the February 2004 shopping reviews, a
                           designated reviewer will check all inputs into the database
                           for accuracy. This will be performed monthly. In addition,
                           the Quality Assurance manager will conduct sample reviews
                           of each reviewer’s Data Collection Instrument for accuracy.




                                                                                 Page 12
              Accuracy Rates Have Increased at Taxpayer Assistance Centers,
       but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                                  Addresses were posted on the IRS Internet site, The Digital
Improvements Were Made to
                                  Daily, for the 104 TACs visited and matched the addresses23
Provide Accurate Taxpayer
                                  posted at the TACs for 87 (88 percent) of 9924 TACs. In
Assistance Center Office Hours
                                  addition, office hours were posted on The Digital Daily for
and Addresses to Taxpayers
                                  all 104 TACs visited and matched the office hours25 posted
                                  at the TACs for 74 (71 percent) of the 104 TACs.
                                  Taxpayers can access The Digital Daily and follow the
                                  appropriate links to obtain the addresses and office hours of
                                  the TACs located in their state. Taxpayers that do not have
                                  access to the Internet may call the IRS toll-free telephone
                                  numbers or automated telephone messaging system at the
                                  TACs to obtain this information.
                                  In our first semiannual report, we made no
                                  recommendations pertaining to TAC addresses and office
                                  hours because of the IRS’ response to one of our bi-monthly
                                  reports.26 However, while progress was made, from July
                                  through December 2002, 2 percent of TAC addresses and
                                  43 percent of TAC office hours posted at the TACs did not
                                  match those on The Digital Daily. As a result, our second
                                  semiannual trend report included a recommendation to
                                  ensure TAC addresses and office hours made available to
                                  taxpayers are accurate.
                                  In preparing for the 2003 Filing Season, IRS managers were
                                  required to certify that all TAC office hours and addresses
                                  were correct on The Digital Daily and on the automated
                                  telephone messaging system at the TACs. The IRS
                                  informed us that the data available to taxpayers from its
                                  Internet site were the most reliable. Figures 6 and 7 show
                                  the comparison of TAC addresses and office hours posted
                                  on The Digital Daily to addresses and office hours provided
                                  to taxpayers via the IRS toll-free telephone numbers and
                                  automated telephone messaging system.


                                  23
                                     Difference in addresses related to incorrect street names or the
                                  omission of building names and room numbers.
                                  24
                                     We used 99 instead of 104 TACs because we could not determine the
                                  addresses at 5 TACs.
                                  25
                                     Differences in office hours related to TAC filing season extended
                                  hours (i.e., Saturday and hours open beyond 4:30 p.m.) and lunch hours.
                                  26
                                     Management Advisory Report: Taxpayers Continue to Receive
                                  Incorrect Answers to Some Tax Law Questions (Reference
                                  Number 2002-40-113, dated June 2002).
                                                                                                Page 13
              Accuracy Rates Have Increased at Taxpayer Assistance Centers,
       but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                                        Figure 6: Comparison of Accuracy of Information Provided
                                                       via Internet to Toll-Free

                                                                Occurrences               Percent
                                  Address Correct                   104                    100%
                                  Office Hours Correct               93                     89%
                                  Source: Anonymous visits performed by TIGTA auditors.
                                       Figure 7: Comparison of Accuracy of Information Provided via
                                          Internet to the Automated Telephone Messaging System27

                                                                Occurrences               Percent
                                  Address Correct                    66                     73%
                                  Office Hours Correct             62                   69%
                                  Source: Anonymous visits performed by TIGTA auditors.

                                  When TAC office hours and addresses made available to
                                  taxpayers are not accurate and timely updated, taxpayers
                                  may find it difficult to seek and obtain face-to-face contact
                                  with the IRS. We are not making any recommendations at
                                  this time but will monitor this during the annual filing
                                  season audits of the TACs.
                                  During our visits to the TACs from January through
Auditors Had Positive
                                  June 2003, IRS employees were professional and courteous,
Experiences When They Visited
                                  limited our wait time, and appropriately provided their
Taxpayer Assistance Centers
                                  names.
                                  •     IRS employees were professional and courteous
                                        in 203 (99 percent) of 206 visits to the TACs.
                                  •     Wait time for service was 1 hour or less for
                                        198 (96 percent) of our 206 visits.
                                  •     IRS employee names were given or visible in
                                        147 (71 percent) of our 206 visits.
                                  For 95 (91 percent) of 104 TACs visited from January
Auditors Were Not Always
                                  through June 2003, auditors observed that Customer Survey
Offered Customer Survey
                                  Comment Cards were available for taxpayers. However, for
Comment Cards
                                  92 (45 percent) of the 206 visits, auditors were not offered a
                                  Comment Card. The IRS developed Customer Survey


                                  27
                                     Percentage based upon 90 TACs because we did not start capturing
                                  this information until March 2003. In addition, there was no automated
                                  telephone messaging system number listed for one TAC.
                                                                                                Page 14
       Accuracy Rates Have Increased at Taxpayer Assistance Centers,
but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                           Comment Cards to obtain feedback on the quality of service
                           received at the TACs. Each TAC should have Comment
                           Cards available for all taxpayers that visit the TACs for
                           assistance, and IRS employees are required to offer a
                           Customer Survey Comment Card to every taxpayer who is
                           provided with face-to-face service.
                           Taxpayers have the option to complete the Comment Card
                           and place it in a secure drop box located in the TAC or to
                           mail it directly to an independent contractor the IRS hired to
                           collect and summarize taxpayer feedback. Taxpayers that
                           completed Customer Survey Comment Cards from January
                           through July 2003 gave the IRS an overall customer
                           satisfaction rate of 87 percent and dissatisfaction rate of
                           8 percent.28
                           The IRS is to be commended for obtaining high satisfaction
                           rates; however, the contractor reported that less than
                           4 percent of the total number of taxpayers that visited the
                           TACs from January and July 2003 completed a Customer
                           Survey Comment Card. While completing the Comment
                           Card is voluntary, IRS employees that do not follow
                           procedures to offer taxpayers Comment Cards limit
                           opportunities for a broader depiction of how satisfied
                           taxpayers are with the quality of service at the TACs. We
                           will continue to monitor this area during the FY 2004 Filing
                           Season reviews of the TACs.




                           28
                             Five percent of taxpayers were neutral in their assessment of the
                           quality of the IRS’ customer service.



                                                                                           Page 15
              Accuracy Rates Have Increased at Taxpayer Assistance Centers,
       but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                                                                                                   Appendix I


                         Detailed Objectives, Scope, and Methodology

The overall objective of this review was to determine if the Internal Revenue Service (IRS)
provided accurate and timely responses to taxpayers’ tax law questions from January through
June 2003. In addition, we assessed whether IRS employees were professional and courteous to
our auditors that made anonymous visits to the Taxpayer Assistance Centers (TAC). We also
evaluated whether TAC addresses and office hours made available to taxpayers were accurate,
whether IRS employees adhered to operating guidelines on referral procedures, and whether all
taxpayers were provided an opportunity to participate in the customer satisfaction survey at the
TACs. Finally, we evaluated the Field Assistance (FA) Quality Assurance Program.
To achieve these objectives, we:
I.      Determined if the IRS provided quality service and accurate responses to tax law
        inquiries at the 104 TACs visited from January through June 2003. This included
        evaluating the results of our visits to identify trends. We asked 411 tax law questions that
        an individual taxpayer1 might ask. The questions were based upon the training provided
        to IRS employees in the TACs during the fall of 2002 and the scope of services for tax
        law assistance prescribed in the Fiscal Year 2002 FA Operating Procedures.
II.     Determined if IRS employees followed FA Operating Procedures to refer questions that
        were outside the scope of services they should have been trained to answer. In addition
        to scheduled visits, auditors completed visits to 85 additional TACs and asked
        223 questions that were beyond the IRS employees’ level of training.
III.    Determined the quality of service provided by the IRS employees.
IV.     Determined if accommodations in the TACs visited were suitable to provide quality
        customer service.
V.      Determined if Customer Survey Comment Cards were available at the TACs and offered
        to taxpayers.
VI.     Evaluated the IRS FA office Quality Assurance process to improve the quality of
        customer service offered in the TACs. We reviewed 1,239 questions and identified
        112 for which the results were not correctly input into the Quality Assurance Program’s
        database. We used a judgmental sample to randomly select 50 of 112 questions and
        compared information documented in the Data Capturing Instrument to information
        captured in the database. We used a judgmental sample because we did not want to
        project the results.


1
 Individual taxpayers are nonbusiness taxpayers that file United States Individual Income Tax Returns
(Forms 1040, 1040A, or 1040EZ).
                                                                                                        Page 16
            Accuracy Rates Have Increased at Taxpayer Assistance Centers,
     but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Frank Jones, Audit Manager
Russell Martin, Audit Manager
Tanya Boone, Senior Auditor
Pamela DeSimone, Senior Auditor
Lena Dietles, Senior Auditor
Deborah Drain, Senior Auditor
Jack Forbus, Senior Auditor
Robert Howes, Senior Auditor
Edie Lemire, Senior Auditor
Grace Terranova, Senior Auditor
Robert Baker, Auditor
Roberta Fuller, Auditor
Andrea Hayes, Auditor
Kathy Henderson, Auditor
Mary Keyes, Auditor




                                                                                         Page 17
            Accuracy Rates Have Increased at Taxpayer Assistance Centers,
     but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:MS:CL
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Stakeholder Partnerships, Education, and Communication, Wage and Investment
Division SE:W:CAR:SPEC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison:
       Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM
       GAO/TIGTA Liaison, Wage and Investment Division SE:W:S:PA




                                                                                    Page 18
            Accuracy Rates Have Increased at Taxpayer Assistance Centers,
     but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                                                                                  Appendix IV


                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 103 taxpayers (see pages 4 and 10).
Methodology Used to Measure the Reported Benefit:
If the accuracy results for the 411 tax law questions we asked from January and June 2003 are
indicative of the actual responses taxpayers receive when they visit a Taxpayer Assistance
Center, we estimate 103 taxpayers could have received incorrect responses to tax law questions.




                                                                                         Page 19
            Accuracy Rates Have Increased at Taxpayer Assistance Centers,
     but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                                                                                  Appendix V


                   States Visited From January Through June 2003




The 32 states visited in which auditors asked questions within the scope of service include
Alabama, Arkansas, California, Colorado, Connecticut, Delaware, Florida, Georgia, Hawaii,
Idaho, Illinois, Indiana, Iowa, Kansas, Kentucky, Maryland, Massachusetts, Michigan,
Mississippi, Missouri, Montana, Nebraska, New Mexico, New York, Ohio, Rhode Island,
South Carolina, Texas, Utah, West Virginia, Wisconsin, and Wyoming.

The 27 states visited in which auditors asked questions outside the scope of service include
Alabama, Arizona, Colorado, Connecticut, Florida, Georgia, Hawaii, Illinois, Indiana, Kentucky,
Louisiana, Maine, Maryland, Massachusetts, Michigan, Mississippi, Missouri, Montana,
New Hampshire, New York, Rhode Island, South Carolina, Tennessee, Utah, Vermont,
Wisconsin, and Wyoming.




                                                                                        Page 20
             Accuracy Rates Have Increased at Taxpayer Assistance Centers,
      but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                                                                                                 Appendix VI


                                      Accuracy Rates by State
                                     January Through June 2002

                   States Visited                                           Accuracy Rates1
                      ALABAMA                                                       50%
                       ARIZONA                                                      45%
                      ARKANSAS                                                      38%
                     CALIFORNIA                                                     61%
               DISTRICT OF COLUMBIA                                                33%
                       FLORIDA                                                      44%
                       GEORGIA                                                      46%
                       HAWAII                                                       38%
                       ILLINOIS                                                     72%
                         IOWA                                                      100%
                     MARYLAND                                                       13%
                   MASSACHUSETTS                                                    28%
                     MINNESOTA                                                      50%
                      MONTANA                                                       44%
                      NEBRASKA                                                     100%
                       NEVADA                                                       75%
                  NEW HAMPSHIRE                                                     83%
                     NEW JERSEY                                                     44%
                      NEW YORK                                                      60%
                  NORTH CAROLINA                                                    46%
                   NORTH DAKOTA                                                    100%
                       OREGON                                                      58%
                    RHODE ISLAND                                                    75%
                  SOUTH CAROLINA                                                    19%
                   SOUTH DAKOTA                                                     50%
                    WASHINGTON                                                      64%
                    OVERALL2                                                       53%
Source: Anonymous visits performed by Treasury Inspector General for Tax Administration (TIGTA) auditors.




1
  Accuracy rates include Correct and Correct but Incomplete answers to tax law questions. For Correct but
Incomplete answers, the correct answer was given, but the Internal Revenue Service (IRS) employee did not ask all
required probing questions.
2
  Overall accuracy rate is the result of 470 questions asked at 116 Taxpayer Assistance Centers (TAC) from January
through June 2002.
                                                                                                          Page 21
             Accuracy Rates Have Increased at Taxpayer Assistance Centers,
      but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service


                                      Accuracy Rates by State
                                     January Through June 2003

                   States Visited                                           Accuracy Rates3
                      ALABAMA                                                        75%
                      ARKANSAS                                                       50%
                     CALIFORNIA                                                      75%
                     COLORADO                                                        75%
                    CONNECTICUT                                                      50%
                     DELAWARE                                                        50%
                       FLORIDA                                                       68%
                      GEORGIA                                                        79%
                       HAWAII                                                        50%
                        IDAHO                                                        50%
                         IOWA                                                       100%
                      ILLINOIS                                                      79%
                      INDIANA                                                       100%
                        KANSAS                                                       50%
                     KENTUCKY                                                       80%
                     MARYLAND                                                        71%
                   MASSACHUSETTS                                                     75%
                     MICHIGAN                                                       100%
                     MISSISSIPPI                                                    83%
                      MISSOURI                                                       75%
                     MONTANA                                                         63%
                      NEBRASKA                                                       81%
                    NEW MEXICO                                                       63%
                     NEW YORK                                                        75%
                         OHIO                                                        75%
                   RHODE ISLAND                                                      25%
                  SOUTH CAROLINA                                                     75%
                         TEXAS                                                       52%
                         UTAH                                                        38%
                   WEST VIRGINIA                                                     75%
                     WISCONSIN                                                       63%
                     WYOMING                                                        75%
                    OVERALL4                                                       71%
Source: Anonymous visits performed by TIGTA auditors.




3
  Accuracy rates include Correct and Correct but Incomplete answers to tax law questions. For Correct but
Incomplete answers, the correct answer was given, but the IRS employee did not ask all required probing questions.
4
  Overall accuracy rate is the result of 411 questions asked at 104 TACs from January through June 2003.
                                                                                                          Page 22
                        Accuracy Rates Have Increased at Taxpayer Assistance Centers,
                 but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                                                                                                            Appendix VII


                                           Accuracy Rates by Geographical Area
                                               January Through June 20031

                             Correct but                            Referred to          Service                           Questions
Area          Correct   %                   %     Incorrect    %                   %                %     Referrals    %
                             Incomplete                             Publication          Denied                             Asked

  12            37      66        0          0       17        30        1         2        0       -         1        2        56
      3
  2             19      53        6         17        9        25        0         0        1      3          1        3        36
  34            60      71        2          2       21        25        1         1        0       -         0        -        84
      5
  4             67      73        8          9       16        17        1         1        0       -         0        -        92
      6
  5             49      65        2          3       19        25        4         5        0       -         1        1        75
  67            31      60        0          0       17        33        3         6        0       -         1        2        52
      8
  7             11      69        1          6        4        25        0         0        0                 0        -        16

Totals         274      67       19          5      103       25        10         2        1       -        4         1        411
          Source: Anonymous visits performed by Treasury Inspector General for Tax Administration auditors.




          1
            Percentages do not add up to 100 due to rounding.
          2
            Area 1 states visited were Connecticut, Massachusetts, New York, and Rhode Island.
          3
            Area 2 states visited were Delaware, Maryland, and South Carolina.
          4
            Area 3 states visited were Alabama, Arkansas, Florida, Georgia, and Mississippi.
          5
            Area 4 states visited were Illinois, Indiana, Kentucky, Michigan, Ohio, Wisconsin, and West Virginia.
          6
            Area 5 states visited were Iowa, Kansas, Missouri, Nebraska, and Texas.
          7
            Area 6 states visited were Colorado, Hawaii, Idaho, Montana, New Mexico, Utah, and Wyoming.
          8
            Area 7 state visited was California.
                                                                                                                      Page 23
                Accuracy Rates Have Increased at Taxpayer Assistance Centers,
         but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                                                                                                   Appendix VIII


                                   Accuracy Rates by Tax Law Topic1
                                      January Through June 2003

                                                                                      Referred
                               Questions               Correct but                                 Service2
       Tax Law Topics                      Correct                       Incorrect       to                   Referrals
                                Asked                  Incomplete                                  Denied
                                                                                     Publication
        Adoption Credit           1           ---          ---              ---       1(100%)        ---         ---
           Alimony                1        1 (100%)        ---              ---          ---         ---         ---
       Amended Return             5        1 (20%)       3 (60%)         1 (20%)         ---         ---         ---
    Capital Gains and Losses      24       17 (71%)        ---           4 (17%)         ---         ---      3 (13%)
       Child Care Credit          8        6 (75%)         ---           1 (13%)      1 (13%)        ---         ---
    Elderly/Disabled Credit       6        4 (67%)         ---           1 (17%)         ---       1 (17%)       ---
       Child Tax Credit           19       17 (89%)        ---           2 (11%)         ---         ---         ---
          Dependents              60       40 (67%)        ---           20 (33%)        ---         ---         ---
Earned Income Tax Credit          48       32 (67%)      6 (13%)         10 (21%)        ---         ---         ---
       Education Credit           16       11 (69%)        ---           5 (31%)         ---         ---         ---
         Filing Status            35       32 (91%)      2 (6%)           1 (3%)         ---         ---         ---
           Gambling               4        4 (100%)        ---              ---          ---         ---         ---
        Interest Income           10       2 (20%)         ---           8 (80%)         ---         ---         ---
      Itemized Deductions         24       12 (50%)        ---           11 (46%)        ---         ---       1 (4%)
       Medical Expenses           10       9 (90%)         ---           1 (10%)         ---         ---         ---
          Retirement              57       35 (61%)        ---           19 (33%)      3 (5%)        ---         ---
         Sale of Home             17       10 (59%)      5 (29%)          1 (6%)       1 (6%)        ---         ---
          Scholarship             18       5 (28%)         ---           12(67%)       1 (6%)        ---         ---
    Social Security Income        40       31 (78%)      3 (8%)          4 (10%)        2 (5%)       ---         ---
     Student Loan Interest        8        5 (63%)         ---           2 (25%)      1 (13%)        ---         ---
Source: Anonymous visits performed by Treasury Inspector General for Tax Administration auditors.




1
    Percentages do not add up to 100 due to rounding.
2
    The Internal Revenue Service employee did not answer the question.
                                                                                                              Page 24
            Accuracy Rates Have Increased at Taxpayer Assistance Centers,
     but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                                                                               Appendix IX


       Listing of Reports Issued for January 2002 Through June 2003 Audits

Management Advisory Report: Taxpayers Continue to Receive Incorrect Answers to Some Tax
Law Questions (Reference Number 2002-40-086, dated April 2002).

Management Advisory Report: Taxpayers Continue to Receive Incorrect Answers to Some Tax
Law Questions (Reference Number 2002-40-113, dated June 2002).

Management Advisory Report: Progress Was Made to Provide Taxpayers With Correct Answers
to Tax Law Questions (Reference Number 2002-40-161, dated August 2002).

Trends in Customer Service in the Taxpayer Assistance Centers Show Procedural and Training
Causes for Inaccurate Answers to Tax Law Questions (Reference Number 2003-40-023, dated
November 2002). (Semiannual Report for January Through June 2002)

Taxpayers That Visited Taxpayer Assistance Centers in July and August 2002 Received Incorrect
Answers to Some Tax Law Questions (Reference Number 2003-40-024, dated November 2002).

Taxpayers That Visited Taxpayer Assistance Centers During September and October 2002
Received More Correct Answers to Tax Law Questions Than in Prior Months
(Reference Number 2003-40-040, dated December 2002).

Taxpayers That Visited Taxpayer Assistance Centers in November and December 2002 Received
Incorrect Answers to Some Tax Law Questions (Reference Number 2003-40-072,
dated March 2003).

Trends in Customer Service in the Taxpayer Assistance Centers Continue to Show Procedural
Causes for Inaccurate Answers to Tax Law Questions (Reference Number 2003-40-158, dated
August 2003).

Progress Was Made to Provide Taxpayers With Correct Answers to Tax Law Questions,
but Improvements Are Needed to Ensure Referral Procedures Are Followed (Reference
Number 2003-40-120, dated May 2003). (Semiannual Report for July Through
December 2002)

Taxpayer Assistance Center Employees Improved the Accuracy of Answers to Tax Law
Questions but Answered Some Questions Beyond Their Level of Training (Reference
Number 2003-40-157, dated July 2003).


                                                                                      Page 25
            Accuracy Rates Have Increased at Taxpayer Assistance Centers,
     but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

Taxpayer Assistance Center Employees Continued to Improve the Accuracy of Answers to Tax
Law Questions During May and June 2003 (Reference Number 2003-40-198,
dated September 2003).




                                                                                   Page 26
              Accuracy Rates Have Increased at Taxpayer Assistance Centers,
       but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                                                                                                                                                                        Appendix X


                                                                Accuracy Rates by Month
                                                             January 2002 Through June 2003




                   85                                                                                                                                                                83
                   80                                                                                                                                          78
                   75                                                                                                  75
                   70                                                                                                                                 69               69
                                                            71                                                                            67    67
                   65                                                                                         65
                                                                                                                                                                               65
                                                                      59
                   60
                   55
     Percentages




                                         55                                    54
                   50                                                                     48
                                                                                                                                    47
                   45
                   40                              41                                                   40
                            37                                                                38
                   35               34                 35                                                                           33
                   30                                                          25
                                                                                                       27                                       29                     28      29
                   25                                                                                                                                 26
                           29             24       23                     21                                 27
                                                                                                  17                       22                                  21
                   20                                            22
                                                                          20        21                                              20   17
                                         20                                                                                                                                          17
                   15                                                                    11                                              14
                                                                                                       15
                   10                                                                                         8                                             2          1       3
                                                             7                                                     3
                    5       0            1         1             0             0          4
                                                                                                                           0    0         3    0
                                                                                                                                                22
                                                                                                                                                      5         0       3      3
                                                                                                                                                                                0
                                                                      0                                       0
                    0                     0        0         0                 0              0         0     0        0        0
                                                                                                                                                      0        0       0             0
                                                                                                                                                                                     0
                                0                                     0                                                                   0
                                                     2




                                                                          2




                                                                                                                                                                 3
                                                                        02




                                                                          2
                      02

                                 02


                                   2




                                                                          2

                                                                        02


                                                                          2




                                                                          2




                                                                        03

                                                                        03


                                                                          3




                                                                                                                                                                             3

                                                                                                                                                                            03
                                                                         2
                                                  -0




                                                                       -0




                                                                                                                                                              -0
                                                                       -0
                                -0




                                                                       -0




                                                                      l-0




                                                                       -0

                                                                       -0




                                                                       -0




                                                                                                                                                                          -0
                                                                    p-
                    n-

                              b-




                                                                    n-




                                                                    n-

                                                                     b-




                                                                                                                                                                         n-
                                               pr




                                                                                                                                                           pr
                                                                   ug




                                                                   ec
                                                                    ct
                                                             ay




                                                                                                                                                                     ay
                             ar




                                                                   ar
                                                                   ov
                                                                  Ju
                                                                 Ju




                                                                                                                                                                       Ju
                   Ja

                           Fe




                                                                 Se




                                                                 Ja

                                                                 Fe
                                                                 O
                                               A




                                                                                                                                                           A
                           M




                                                                 M
                                                                 D
                                                            M




                                                                                                                                                                    M
                                                                 A




                                                                 N




                                                                                                             Months

                                     Correct                 Incorrect                   Referred to Publication                         Service Denied             Referral
Source: Anonymous visits performed by Treasury Inspector General for Tax Administration auditors.




                                                                                                                                                                                    Page 27
             Accuracy Rates Have Increased at Taxpayer Assistance Centers,
      but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                                                                                                Appendix XI


                                         Accuracy Rates1
                                 January 2002 Through June 2003

From January 2002 through June 2003, Treasury Inspector General for Tax Administration
auditors asked 1,213 tax law questions. The chart below shows the accuracy rates2 for those
questions.




                                          1%         0%
                     12%




          26%
                                                                                    60%




                                      Correct (60%)
                                      Incorrect (26%)
                                      Referred to Publication (12%)
                                      Service Denied (1%)
                                      Referrals (0%)




1
  Correct includes Correct but Incomplete: The correct answer was given, but the Internal Revenue Service (IRS)
employee did not ask all required probing questions.
Referred to Publication: The IRS employee did not answer the question but instead referred the auditor to a
publication and advised the auditor to do his or her own research to find the answer to the question.
2
  Percentages do not add up to 100 due to rounding.
                                                                                                        Page 28
       Accuracy Rates Have Increased at Taxpayer Assistance Centers,
but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service

                                                                 Appendix XII


              Management’s Response to the Draft Report




                                                                        Page 29
       Accuracy Rates Have Increased at Taxpayer Assistance Centers,
but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service




                                                                        Page 30
       Accuracy Rates Have Increased at Taxpayer Assistance Centers,
but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service




                                                                        Page 31
       Accuracy Rates Have Increased at Taxpayer Assistance Centers,
but Improvement Is Needed to Provide Taxpayers Top-Quality Customer Service




                                                                        Page 32
